No.

1=5850 ORSGENAl
filed
SEP 2 7 2021
IN THE

SUPREMECOJRTU^

SUPREME COURT OF THE UNITED STATES

LAWRENCE E. MATTISON; PETITIONER
VS.
DENIS R. MCDONOUGH, Secretary Department of Veterans Affairs;
U.S. Department of Veterans Affairs

Petition for Writ of Certiorari to the
FOURTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Lawrence E. Mattison
466 Fort Worth Street
Hampton, Virginia 23669
(757) 604-7894
La7matt@vahoo.com

Federal Law, Federal Policy & Procedure prescribed for and by the Department of
Veterans Affairs (“DVA”, “Federal employer”) makes clear that ALL permanent
employees in competitive service of this Federal employer are prohibited from
using State government processes for “On Property” employee allegations because it
interferes with the operation of the DVA, Thereby “Placing ALL permanent
competitive DVA employees similarly situated under these Federal Laws, Policy &
Procedures regardless of Race, gender, national origin

etc. ” 42 U.S.C. §2000e et

seq (42 U.S.C. §1981)

THE QUESTION(S) PRESENTED ARE:
1. Whether, and in what circumstances, this Federal employer may use a
Substantive Procedure contrary (repugnant) to Federal law and DVA Policy
& Procedure allowing the use of State government processes against their
employees.
2. Whether, and it what circumstances, this Federal employer that protects
white male employees from State government processes under stated Federal
law, Policy & Procedure must provide the same protection to black male
employees (petitioner) when the white male and petitioner are similar in that
ALL employees of this federal employer are protected under the same
Federal Law, Policy & Procedure.

Related cases
Mattison v. Virginia, 138 S.Ct. 2689 (Mem), 201 L.Ed.2d 1082, 86 USLW
3641 (June 2018, case 17-8868)
Mattison v. Janie Willis, et al, 140 S.Ct. 2683 (Mem), 206 L.Ed.2d 830S.
(April 2020, case 19-7669)
«

IN RE: Mattison (Habeas corpus), 140 S.Ct. 2758 (Mem), 206 L.Ed.2d 929
(May 2020, case 19-7509)
List of Parties

Denis R. McDonough, Secretary Department of Veterans Affairs, Respondent
Elizabeth B. Prelogar Solicitor General; United States Department of Justice
Mr. Richard A. Sauber; General Counsel, Office of the General Counsel Department
of Veterans Affairs
TABLE OF CONTENTS
QUESTIONS PRESENTED

i

RELATED CAES/PARTIES

n

TABLE OF AUTHORITIES

m

FEDERAL LAWS, DVA POLCY & PROCEDURE

xv

OPINIONS

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

6

REASON FOR GRANTING THE PETITION

8

ARGUMENT

9
ii

CONCLUSION

14

INDEX TO THE APPENDIX A

15

July 30, 2021 Unpublished ORDER
of the 4th Circuit Appellate court Denying Rehearing

la

March 5, 2021 Unpublished JUDGMENT ORDER
of the 4th Circuit Appellate court
affirming the E.D. Va dismissal order.....................

2a

February 10, 2020 Unpublished ORDER
of the E.D. Va. court dismissing the complaint

5a

Petitioner’s timely filed Informal Brief submitted March 10, 2020

18a

TABLE OF AUTHORITIES CITED
CASES
Mavnard v. Bd. of Regents of Div. of Univs. of Fla. Dep’t of Educ.,
9, 13

342 F.3d 1281, 1289 (11th Cir.2003)
McDonnell Douglas Core, v. Green. 411 U.S. 792, 93 S.Ct. 1817,
36 L.Ed.2d 668 (1973)............................................................................
Montgomery v. Louisiana. 136 S.Ct. 718 (2016), case No. 14—280

6, 9, 12
8,

Peggy Young v. United Parcel Service, Inc., 135 S.Ct. 1338
191 L.Ed.2d 279 (2015), case No. 12-1226 .................................

8, 13

STATUTES
5 U.S. Code $ 101 - Executive Departments ....

1,9

5 U.S. Code § 301 - Departmental Regulations

2,9

38 U.S. Code § 902 - Enforcement and arrest authority
of Department police officers.............

2, 10

38 C.F.R § 1.203 - Information to be reported to VA Police

3, 10

iii

38 C.F.R § 1.205 - Notification to the Attorney General or
United States Attorney's Office............

3, 10

38 C.F.R §14.501 - Functions And Responsibilities Of Regional Counsels

4, 10

38 C.F.R. § 14.560 - Procedure where violation of
penal statutes is involved including those
offenses coming within the purview of
the Assimilative Crime Act (18 U.S.C. 13

6, 10

DVA POLICY & PROCEDURE
Department of Veterans Affairs,
VA HANDBOOK 0730 (AUGUST 11, 2000)

iv

7, 10

In the
Supreme Court Of The United States
Petition for writ of certiorari
Opinions below
The 4th Circuit Appellate court ORDER denying rehearing/rehearing en banc is
Unpublished without opinion, dated 7/30/2021 (Case 20-1173) is at enclosed App
la.
The 4th Circuit Appellate Court Unpublished PER CURIAM OPINION,
affirming the E.D. Va. court’s Dismissal order is dated 05/05/2021 (case 20-1173)
is at enclosed App 2a
The E.D. Va. case 4:19-CV-18 OPINION and DISMISSAL ORDER is dated
2/10/2020 is unpublished/ unreported and is at enclosed App 5a.
Petitioner’s Informal Brief to the 4th Circuit Appellate court, dated March 10
2020 is at enclosed App 18a.
JURISDICTION
The decision of the 4th Circuit Court of Appeals DENYING rehearing/rehearing en
banc was issued July 30, 2021. Jurisdiction of this Court is proper pursuant to 28
U.S.C. §1254
STATUTORY PROVISIONS /
DEPARTMENT OF VETERANS AFFAIRS POLICY & PROCEDURE
INVOLVED

0)

5 U.S. Code § 101 - Executive departments
“..........The Department of Veterans Affairs
(Pub. L. 89-554, Sept. 6, 1966, 80 Stat. 378; Pub. L. 89-670, § 10(b), Oct. 15,
1966, 80 Stat. 948; Pub. L. 91-375, § 6(c)(1), Aug. 12, 1970, 84 Stat. 775; Pub.
L. 95-91, title VII, § 710(a), Aug. 4, 1977, 91 Stat. 609; Pub. L. 96-88, title V,
§ 508(b), Oct. 17, 1979, 93 Stat. 692; Pub. L. 100-527, § 13(b), Oct. 25, 1988,
Page 1 of 15

102 Stat. 2643; Pub. L. 109-241, title IX, § 902(a)(1), July 11, 2006, 120 Stat.
566.)
(2)

5 U.S. Code § 301 - Departmental regulations
The head of an Executive department or military department may prescribe
regulations for the government of his department, the conduct of its
employees, the distribution and performance of its business, and the custody
use and preservation of its records, papers, and property. This section does
not authorize withholding information from the public or limiting the
availability of records to the public.
(Pub. L. 89-554, Sept. 6, 1966, 80 Stat. 379.)
Id. 5U.S.C. §301

(3)

38 U.S. Code § 902 - Enforcement and arrest authority of Department police
officers
(a)
(1) Employees of the Department who are Department police officers shall,
with respect to acts occurring on Department property—
(A) enforce Federal laws;
(B) enforce the rules prescribed under section 901 of this title;
(C) enforce traffic and motor vehicle laws of a State or local government (by
issuance of a citation for violation of such laws) within the jurisdiction of
which such Department property is located as authorized by an express grant
of authority under applicable State or local law;
(D)carry the appropriate Department-issued weapons, including firearms,
while off Department property in an official capacity or while in an official
travel status;
(E)conduct investigations, on and off Department property, of offenses that
may have been committed on property under the original jurisdiction of
Department, consistent with agreements or other consultation with affected
Federal, State, or local law enforcement agencies; and
(F)carry out, as needed and appropriate, the duties described in
subparagraphs (A) through (E) when engaged in duties authorized by other
Federal statutes.
(2) Subject to regulations prescribed under subsection (b), a Department
police officer may make arrests on Department property for a violation of a
Federal law or any rule prescribed under section 901(a) of this title, and on
any arrest warrant issued by competent judicial authority.
Page 2 of 15

(b) The Secretary shall prescribe regulations with respect to Department
police officers. Such regulations shall include—
(1) policies with respect to the exercise by Department police officers of the
enforcement and arrest authorities provided by this section;
(2) the scope and duration of training that is required for Department police
officers, with particular emphasis on dealing with situations involving
patients; and
(3) rules limiting the carrying and use of weapons by Department police
officers.
(c)The powers granted to Department police officers designated under this
section shall be exercised in accordance with guidelines approved by the
Secretary and the Attorney General.
(d) Rates of basic pay for Department police officers may be increased by the
Secretary under section 7455 of this title.
(Added Pub. L. 102-83, § 2(a), Aug. 6, 1991, 105 Stat. 397; amended Pub. L.
111-163, title X, § 1001, May 5, 2010, 124 Stat. 1181.)
Id. 38 U.S.C. §902
(4)

38 C.F.R § 1.203 Information to be reported to VA Police.
Information about actual or possible violations of criminal laws related to VA
programs, operations, facilities, or involving VA employees, where the
violation of criminal law occurs on VA premises, will be reported by VA
man agement officials to the VA police component with responsibility for the
VA station or facility in question. If there is no VA police component with
jurisdiction over the offense, the information will be reported to Federal,
state or local law enforcement officials, as appropriate.
(Authority: 38 U.S.C. 902)
AUTHORITY: 38 U.S.C. 501(a), and as noted in specific sections.
Id. 38 C.F.R. §1.203

(5)

38 C.F.R § 1.205 Notification to the Attorney General or United States
Attorney’s Office.
VA police and/or the OIG, whichever has primary responsibility within VA
for investigation of the offense in question, will be responsible for notifying
the appropriate United States Attorney's Office, pursuant to 28 U.S.C. 535.
(Authority: 5 U.S.C. App. 3, 38 U.S.C. 902)
AUTHORITY: 38 U.S.C. 501(a), and as noted in specific sections.
Id. 38 C.F.R. §1.205
Page 3 of 15

(6)
38 C.F.R § 14.501 Functions And Responsibilities Of Regional
Counsels.
(a)
Functions and responsibilities of the Regional Counsels are those set
forth in this part and all other matters assigned by the General Counsel.
(b) In any matter within the jurisdiction of the General Counsel, delegated or
otherwise assigned, the Regional Counsel and designated staff attorneys are
authorized to conduct investigations, examine witnesses, take affidavits,
administer oaths and affirmations and certify copies of public or private
documents.
(c) The Regional Counsel is authorized to, and shall, under the guidance of
the General Counsel, provide legal services, advice and assistance to
Department of Veterans Affairs installations within the district assigned. In
any area of regulatory, assigned or delegated responsibility, the Regional
Counsel may delegate to staff members or other Department of Veterans
Affairs attorneys authority to perform, to the extent specified, any legal
function under the professional direction of the Regional Counsel.
Conversely, the Regional Counsel may modify, suspend, or rescind any
authority delegated hereunder.
(d) The Regional Counsel is authorized to cooperate with affiliated
organizations, legislative committees, and with local and State bar
associations to the end that any State law deficiencies relating to Department
of Veterans Affairs operations may be removed. No commitment as to
proposed legislation will be made without the approval of the General
Counsel.
Id. 38 C.F.R §501
(7)

Department of Veterans Affairs, VA HANDBOOK 0730 (AUGUST 11,
2000)
SECURITY AND LAW ENFORCEMENT
Ch. 1. REASON FOR ISSUE: This handbook establishes procedures that
implement the policies
contained in VA Directive 0730, Security and Law Enforcement.

Ch. 7. LAW ENFORCEMENT PROCEDURES
b. Statutory Arrest Authority

Page 4 of 15

(1) Employees who are duly appointed as VA police officers will have the
authority to
enforce Federal laws and VA regulations with respect to acts occurring on
Department property,
to arrest persons on Department property for offenses committed on that
property, and to make arrests on warrants issued by a proper Federal
authority for those offenses.
(3) VA police may enforce the traffic and motor vehicle laws of the state or
local government
within the jurisdiction of which the VA property is located as authorized by
an express grant of
authority under the applicable state or local law. This enforcement is limited
to the issuance of
a citation.
(4) VA police officers will exercise arrest authority only following the issuance
of VA Form
1479, Police Officer Appointment Card, and a police badge set.
(e) VA police officers will not be deputized or appointed as special police
officers or
otherwise empowered with law enforcement authority by state, municipal,
county, or other nonVA agencies for the purpose of enforcing state laws
and local ordinances on VA property.
(f) Any state or local law enforcement authority held by a VA police officer
will not be
exercised during scheduled tours of duty.
c.

Classification of Crimes

(2) The Assimilative Crimes Act, Title 18 U.S.C. 9 13, will be used at facilities
having
exclusive or concurrent jurisdiction in those instances where a crime has
been committed and
no specific Federal law exists defining the offense. The local U.S. Attorney
will be consulted
when considering use of the Assimilative Crimes Act.
Id. Handbook 0730(h) can
be found at the Hampton
Veterans Affairs Medical
Center police services,
Page 5 of 15

see Fed. R. Evid.
901(a)(b)(7)
(8)

38 C.F.R. § 14.560 Procedure where violation of penal statutes is
involved including those offenses coming within the purview of the
Assimilative Crime Act (18 U.S.C. 13).
The Department of Justice, or the U.S. Attorneys, are charged with the duty
and responsibility of interpreting and enforcing criminal statutes, and the
final determination as to whether the evidence in any case is sufficient to
warrant prosecution is a matter solely for their determination. If the
Department of Justice or U.S. Attorney decides to initiate action, the
Regional Counsel will cooperate as may be requested. The Regional Counsel
will promptly bring to the attention of the General Counsel any case wherein
he or she is of the opinion that criminal or civil action should be initiated
notwithstanding a decision by the U.S. Attorney not to bring such action; any
case where action has been inordinately delayed; and any case which would
cause significant publicity or notoriety.
(Authority: 38 U.S.C. 501)
Credits

[43 FR 39365, Sept. 5, 1978; 50 FR 24767, June 13, 1985; 54 FR 34982, Aug.
23, 1989; 68 FR 17551, April 10, 2003]
Id. 38 C.F.R. §14.560
STATEMENT OF THE CASE
On February 12, 2020 Petitioner (plaintiff in the initial action) requested
Appellate review (case 20-1173) of Eastern District of Virginia (“E.D. Va ”) dismissal
order case 4:19-CV-18, a race/sex discrimination, hostile work environment claim
under Title VII of the civil rights Act as amended 1964 (42 U.S.C.A. § 2000e et seq.);
42 U.S.C. §1981. Petitioner’s pleadings and E.D. Va. dismissal Order was based on
the burden-shifting framework set forth in McDonnell Douglas Corp. v. Green, 411
U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d 668 (1973) and the fourth element (“4th
Page 6 of 15

element”) in a Federal Employment Termination action where the Department of
Veterans Affairs (“DVA”) is the (“Federal employer”).
In this Petition, the 4th circuit appellate court condoned a substantive procedural
violation by the E.D.Va. court, which condoned an unlawful pretext by the Federal
employer related to the use of a State government process against petitioner but
intervened in a State government process for a white male. Petitioner made clear
that the lack of intervention is contrary (repugnant) to Federal Law, therefore a
pretext for race/sex discrimination. The 4th Circuit appellate court sanctioned the
unlawful pretext. See App 2a
Petitioner claimed that the use of a State government process against him (a black
male) was racially discriminatory vs. the intervention of a State government process
in favor of a white male, when both persons were similarly protected by Federal
Law and this Federal employer’s policy & procedure from State government
processes for “on property” allegations. See App 5a-7a
The 4th Circuit Appellate court sanctioned the E.D. Va. court by “inferring
without saying” that this Federal Employer is “somehow authorized” to use State
government process against their employees. Petitioner countered with Federal
Law, Policy & Procedure created by this Federal employer, under the authority of
the U.S. Congress, proving ALL DVA employees are similar and protected from
State government process for “on property” allegations, specifically those allegations
that could affect the terms and conditions of employment. See Informal brief@ App
18a-30a

Page 7 of 15

THEREFORE, the stated reason for termination by the Federal employer was
Pretext for race/sex discrimination, and allowing their employees to use the State
processes against each other created and perpetuated a Hostile work environment.
REASON(S) FOR GRANTING THIS PETITION
The E.D. Va. Order, sanctioned by the 4th Circuit Appellate Court., is an
order contrary (repugnant) to Federal Laws related to the substantive procedure
created by this Federal Employer for ALL its employees. See App 23a. Based on this
court’s holding in Young v. United Parcel Service, Inc., 135 S.Ct. 1338, 191 L.Ed.2d
279 (2015), case No. 12-1226 (holding that a company policy disparately applied to
similarly situated persons may constitute discrimination under title VII); and
Montgomery v. Louisiana, 136 S.Ct. 718 (2016), case No. 14—280 (Holding: A
conviction or sentence imposed in violation of a substantive rule is not just
erroneous but contrary to law and, as a result, void) Id.@ 731. The 4th Circuit
Appellate court sanctioned the substantive procedural violations and the legal
anomaly created by the E. D. Va. Court’s Order dismissing petitioner’s Title VII
complaint.
This Petition seeks this court’s supervisory powers and requests the Hon.
Justice John Roberts uses his supreme authority over the 4th Circuit to submit a
written Instruction to the 4th Circuit appellate court, without the need for
additional briefs or hearing, REMANDING this case back the 4th Circuit with
instruction to: ‘(1) determine whether the petitioner’s claim that respondent’s use of
a State government process is contrary to Federal Law; (2) if contrary to federal

Page 8 of 15

law, REMAND the case back to the E. D. Va. court with instruction. (3) If Not
contrary to Federal Law, state this position clearly. Petitioner’s Informal Brief to
the 4th Circuit Appellate Ct. had all the information and requested either written
instruction but the Lower Appellate court did not. See App 18a -30a
ARGUMENT
For a Federal Employment termination claim based on race/sex
discrimination, petitioner and the E.D. Va. Order relied on the burden-shifting
framework set forth in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93 S. Ct.
1817, 36 L.Ed.2d 668 (1973) and the fourth element (“the comparator employee”) see
App 10a-13a : That Petitioner was “treated less favorably than a similarly situated
individual outside his protected class.” Id; Maynard v. Bd. of Regents of Div. of
Univs. of Fla. Dep’t of Educ., 342 F.3d 1281, 1289 (11th Cir.2003). Petitioner ‘s
complaint made clear that [H]e is a Black male, with an excellent work history,
suffered the adverse employment action of termination

and treated differently

than a similarly situated white male. Id
Federal Law 5U.S.C. §101@ paragraph (“f’) 1 makes clear the Department
of Veterans Affairs is an executive branch federal agency. 5 U.S.C. §301 @

makes

clear the U.S. Congress authorized executive agencies the authority to promulgate
laws, rules & policies governing the operation of their respective agencies including
their Employees, Federal police force and Regional Counsel Attorneys.
38 U.S.C. §902 @ K3; 38 C.F.R. §1.203 @ App 26a; 38 C.F.R. §1.205 @ App 27a;
38 C.F.R. §14 501 @ 1[6: DVA Policy & Procedure 0730 @ T7 and 38 C.F.R. §14.560 @

Page 9 of 15

App 28a are [ALL] written by and for The Department of Veterans Affairs. [ALL]
are written to channel “on property” employee allegations to a Federal process to
include allegations of a criminal nature, THEREBY placing ALL this Federal
employers employees similar under these Laws, policies & procedures, including
prohibiting DVA Regional counsel Attorney employees and DVA police officer
employees from using State government processes for “on property” allegations. See
App 7a (this Federal employer's removal allegations consisted of “on Property"
allegations) §14.560 @App 28a makes clear “on property” allegations of a criminal
nature are exclusively under Federal authority.
1.

Whether, and in what circumstances, this Federal employer may use
a Substantive Procedure contrary (repugnant) to Federal law and
DVA Policy & Procedure allowing the use of State government
processes against their employees.
Here, the 4th Circuit Appellate court sanctioned a ruling contrary

(repugnant) to Federal Law. Federal Law for this Federal employer sets up non­
discretionary substantive procedure that ANY “On Property” employee allegation is
exclusively under a Federal process to include Administrative and/or criminal
issues . See App 26a-30a Meaning: it doesn’t matter the circumstance, or what “on
property” allegation an employee faces, the merits of the allegation are exclusive to
the federal process to determine the truthfulness of any alleged conduct or whether
any alleged conduct rises to a criminal act or should affect the terms and conditions
of employment. See 14.560 @App 28a, THEREFORE, the 4th Circuit was required
by Federal Law to REMAND this case back to the E. D. Va. court based on
Petitioner’s Informal Brief, see App 18a-30a
Page 10 of 15

2.

Whether, and it what circumstances, this Federal employer that
protects white male employees from State government processes
under stated Federal law, Policy & Procedure must provide the same
protection to black male employees (petitioner) when the white male
and petitioner are similar in that ALL employees of this federal
employer are protected under the same Federal Law, Policy &
Procedure.
Here, the 4th Circuit condoned a contradiction to Federal Law and the legal

anomaly created by the E. D. Va. alleging that Hendley and Petitioner were not
similarly situated. In the Hendley case, a black male (“Porter”) filed a state
criminal complaint against a white male (“Hendley”) alleging assault & battery
while on DVA property. The respondent intervened pursuant to 38 C.F.R.
§14.501(d) @ K 6. No state prosecutor prosecuted the case, Only Federal interests
were presented. At a Hampton Virginia “trial” Porter, Hendley and employees from
the DVA presented non-criminal statements to a “judge”, the state judge dismissed
the charge claiming “insufficient evidence” but did not clarify that the allegations
presented were Federal interests not within the State’s authority. Porter and
Hendley were employees of this federal employer, similarly covered under the same
Federal Law, policy & procedure, see App 26a-30a.
Here, a DVA police officer filed a State criminal complaint against Petitioner
(a black male) Alleging stalking a white female employee while on DVA property.
The Respondent Did Not intervene as required by §14.501, Only Federal interests
were presented (emphasis). At a Hampton Virginia “trial” petitioner, the DVA police
officer and employees from this Federal employer presented non-criminal
statements to a “judge”, petitioner was found “guilty”. Petitioner’s filer was a DVA
Page 11 of 15

police officer J. Willis (“Willis”), Hendley’s filer was Porter. Both Willis and Porter
were on equal footing, prohibited from filing “on property” allegations to the State
government. Hendley and Petitioner were similar in that Both are protected from
State government interference where the respondent had a legal obligation to
intervene regardless of the “on property” allegations used to gain criminal charges
see §14.501(d) @ H 6 (emphasis). THEREFORE, the 4th circuit sanctioned a
substantive procedural violation created by the E.D. Va. court by ignoring the
substantive procedural processes created by this Federal employer.
3.

Federal Law makes clear in this case, the respondent’s use of a State
government process against petitioner, a black male, for “on
Property” employee relation is contrary (repugnant) to that law,
desperate and a pretext for race/sex discrimination.
Here, Petitioner filed his race/sex discrimination complaint (4:19-CV-18)

making clear a substantive due process violation occurred based on a racially
discriminatory 2-step process that lead to petitioner’s termination: (1) the failure to
intervene as required by federal law and (2) the use of the state “conviction against
Petitioner’s employment. Petitioner filed his federal claim under the framework
created in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93 S.Ct. 1817, 36
L.Ed.2d 668 (1973). Under that framework, the petitioner has “the initial burden” of
“establishing a prima facie case” of discrimination. Id., at 802, 93 S.Ct. 1817. If he
carries his burden, the employer must have an opportunity “to articulate some
legitimate, non-discriminatory reason[s] for” the difference in treatment, ibid.
If the employer articulates such reasons, the plaintiff then has “an opportunity to
prove by a preponderance of the evidence that the reasons ... were a pretext for
Page 12 of 15

discrimination.” Ibid. Peggy Young v. United Parcel Service, Inc., 135 S.Ct. 1338,
1341(2015). To set out a prima facie case for disparate treatment in a race or sex
discrimination case, the plaintiff may show that: (1) he is a member of a protected
class; (2) he was qualified for the position; (3) he suffered an adverse action; and (4)
he was treated less favorably than a similarly situated individual outside his
protected class. Maynard v. Bd. of Regents of Div. of Univs. of Fla. Dep't of Educ.,
342 F.3d 1281, 1289 (11th Cir.2003) The 4th Circuit condoned the E.D. Va. court’
order which acknowledged that Petitioner satisfied the first three elements. See App
2a; see App 11a-13a. Petitioner’s position related to the 4th element is that the
substantive procedural violation taken by this federal employer was an unlawful
pretext, motivated by race/sex discrimination.
A.

Failure to intervene bv this Federal employer, the first step, conveyed to

Virginia by meeting of the minds or direct communication, a false belief this
respondent could “pick-and-choose” between Federal and State processes.
Intervention under 38 C.F.R §14.50l(d)@ H6 is non-discretionary and requires
Federal interest be placed under a Federal process. This Federal employer has
acknowledged intervention for same race/same sex employee issues. The failure to
intervene was used by the Virginia court as “authority to find petitioner guilty”,
there was no presumption of innocence, see Mattison v. Janie Willis et al, 140 S.Ct.
2683(April 2020, case 19-7669, merits were not decided) in this case the 4th circuit
appellate court condoned violations of the exclusive criminal authority of the DVA
and the Federal supremacy clause under Article VI, §2 @ 774 Fed. Appx. 800.; see in

Page 13 of 15

re Mattison, 140 S. Ct. 2758 (May 2020, Habeas corpus case No. 19-7509, merits
were not decided) in this case a violation of the Supremacy clause was ignored@ 140
S.Ct. 1249; see Mattison v. Virginia. 138 S. Ct.2689 (June 2018, case No. 17-8868
merits were not decided) in this case Virginia sanctioned and condoned a violation
of the exclusive criminal authority to the DVA;
B.

Termination of Federal employment, the second step in this race/sex

discrimination case. This Federal employer had All the necessary information that
their removal allegations @ App 7a were “on Property” Federal interests but false
when authored. This federal employer knew and should have known Federal Law
prohibits State court interference in on-property employee allegations.
THEREFORE, Petitioner’s initial complaint made out a prima facie case of
race/sex discrimination and hostile work environment and Petitioner’s response to
this employer’s stated reason for termination made a claim of unlawful pretext
consistent with the framework under McDonnell Douglas Corp. v. Green.
CONCLUSION
This petition should be GRANTED with the requested instruction because the 4th
circuit appellate court condoned substantive due process violations of Federal Law.
Submitted to the If.$. Supreme court by
Lawrence E. Mattison*-'
466 Fort Worth St.
Hampton, Va. 23669
(757) 265-8788
La7matt@vahoo.com
On

f^^Wyvbq,>r £1*7.2021
Page 14 of 15

